HHS/OIG, Audit - "Review of Kansas's Mental Health Center Medicaid Administrative
Cost for the Quarters Ended December 31, 2002, and March 31, 2003," (A-07-05-03063)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Kansas's Mental Health Center
Medicaid Administrative Cost for the Quarters Ended December 31, 2002, and March 31, 2003," (A-07-05-03063)
August 11, 2006
Complete
Text of Report is available in PDF format (622 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agency claimed mental health center (MHC)
Medicaid administrative costs for the quarters that ended December 31, 2002, and March 31,
2003, in accordance with applicable Federal requirements. We found that the State agency
did not claim MHCs Medicaid administrative costs in accordance with applicable Federal requirements.
Specifically, (1) the State agency used a statistically invalid random moment time study
to allocate costs because it had inadequate oversight and the system did not have adequate
capacity to process all of the time studies; (2) the State agency inappropriately claimed
75 percent Federal reimbursement instead of 50 percent for activities that did not require
skilled professional medical personnel expertise because of a weakness in the claim calculator;
(3) the State agency's claim for the quarter that ended March 31, 2003, was calculated by
MAXIMUS with transposed time study percentages because the State agency had inadequate oversight
to ensure claimed amounts were accurate; and (4) the State agency included improper amounts
reported by some of the MHCs because it had inadequate oversight and did not adequately train
staff at the MHCs. We recommended that the State agency work with CMS to resolve the $3,060,098
in Federal reimbursement that we set aside. The State agency concurred with the findings
and the recommendation.